                     U.S. ENVIRONMENTAL PROTECTION AGENCY
                     OFFICE OF INSPECTOR GENERAL




                     EPA Needs to Clarify Its
                     Claim of “No Net Loss”
                     of Wetlands
                     Report No. 14-P-0191                   April 16, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Stacey Banks
                                                     Charles Brunton
                                                     Dan Engelberg
                                                     Tim Roach
                                                     Gerry Snyder




Abbreviations

CFR            Code of Federal Regulations
CWA            Clean Water Act
EPA            U.S. Environmental Protection Agency
OIG            Office of Inspector General
USACE          U.S. Army Corps of Engineers


Cover photo: Peat mining in a wetlands area in Region 8. (EPA photo)



 Hotline                                        Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
 through one of the following methods:          contact us through one of the following methods:

 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:    EPA Inspector General Hotline        write:    EPA Inspector General Hotline
           1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2431T
           Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                 14-P-0191
                                                                                                          April 16, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review
                                    EPA Needs to Clarify Its Claim of
Our objective was to                “No Net Loss” of Wetlands
determine how the
U.S. Environmental Protection
                                     What We Found
Agency (EPA) verifies that the
application of the wetlands
                                    The EPA needs to clarify that its claim of          The EPA can improve
protection and restoration
                                    “no net loss” of wetlands is based on               performance reports by
guidelines achieves “no net
                                    projections of future results from mitigation       indicating that achieving
loss” of wetlands. The Clean                                                            “no net loss” is based on the
                                    projects, because not all mitigation projects
Water Act Section 404                                                                   assumption that all
                                    succeed.
regulatory program addresses                                                            mitigation projects will meet
the discharge of dredged or fill                                                        performance standards.
                                    The EPA attempts to verify that the application
materials in the waters and
                                    of the wetlands protection and restoration
wetlands of the United States.
                                    guidelines furthers the goal of “no net loss” by comparing the total acres of
                                    wetland impacts to the total acres planned for mitigation in the U.S. Army Corps of
One of the EPA’s roles in this
                                    Engineers’ Section 404 permits. However, performance reporting in the EPA’s
program is to review and
                                    2013 annual plan does not inform readers of the assumption that all mitigation
comment on individual permit
                                    projects meet performance standards. Performance standards are the
applications submitted to the
                                    ecologically-based standards that the U.S. Army Corps of Engineers personnel
U.S. Army Corps of
                                    will use to determine whether a compensatory mitigation project is achieving its
Engineers. In its fiscal year
                                    objectives. Not clearly communicating such assumptions hampers the public’s
2013 Annual Plan, under the
                                    understanding of the EPA’s actual performance in protecting wetlands.
Section 404 regulatory
program, EPA reported
“no net loss” of wetlands for       Recommendation and Planned Corrective Actions
fiscal years 2009 through
2011.                               We recommend that the Assistant Administrator for Water clarify on the wetlands
                                    measure definitions webpage and in future annual performance reporting that
This report addresses the           “no net loss” of wetlands is based upon an assumption that mitigation projects
following EPA theme:                contained in Clean Water Act Section 404 permits will meet performance
                                    standards. The agency agreed with the recommendation and provided acceptable
  Protecting water: A              corrective actions. The recommendation is resolved.
   precious, limited resource.




For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2014/
20140416-14-P-0191.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       THE INSPECTOR GENERAL




                                              April 16, 2014

MEMORANDUM

SUBJECT:       EPA Needs to Clarify Its Claim of “No Net Loss” of Wetlands
               Report No. 14-P-0191

FROM:          Arthur A. Elkins Jr.

TO:            Nancy K. Stoner, Acting Assistant Administrator
               Office of Water

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA office having primary responsibility for the issues evaluated in this report is the Office of
Water’s Office of Wetlands, Oceans and Watersheds.

Action Required

This report’s recommendation was agreed to and resolved. Therefore, no final response to this report is
needed. If you wish to provide a final response to this report, it should be provided as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public;
if your response contains such data, you should identify the data for redaction or removal along with
corresponding justification. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Assistant Inspector General for Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov;
or Dan Engelberg, Director, Water Evaluations, at (202) 566-0830 or engelberg.dan@epa.gov.
Purpose

                 The purpose of this review was to determine how the U.S. Environmental
                 Protection Agency (EPA) verifies that the application of the wetlands protection
                 and restoration guidelines achieves “no net loss” of wetlands.

Background

                 The environmental and human health value of wetlands is significant. Wetlands
                 provide ecosystem services such as reducing damage caused by flooding;
                 moderating global climate conditions; and functioning as natural filtration for
                 sources of drinking water. The U.S. Fish and Wildlife Service estimates that up to
                 43 percent of threatened and endangered species rely directly or indirectly on
                 wetlands for survival. The Service’s most recent 5-year wetlands inventory report1
                 indicates that the United States lost approximately 62,300 acres of wetlands
                 between 2004 and 2009.
                 The Clean Water Act (CWA) Section 404 regulatory program addresses the
                 disposal of dredged or fill materials in the waters and wetlands of the United
                 States. In 1980, the EPA and the U.S. Army Corps of Engineers (USACE) issued
                 wetlands guidelines2 to provide the substantive environmental standards for
                 evaluating Section 404 permit applications. The USACE implements the
                 guidelines as part of its authority to issue or deny permits. Under the guidelines,
                 the USACE is also responsible for monitoring compensatory mitigation plans
                 within Section 404 permits. As part of the permitting process, a permittee must
                 obtain USACE approval of “performance standards” for mitigation projects
                 before a Section 404 permit is issued. These are the ecologically-based standards
                 that USACE personnel will use to determine whether a compensatory mitigation
                 project is achieving its objectives.

                 The EPA may review the public notices issued by the USACE and provide
                 comments, as appropriate, to the USACE. In 2008, the USACE and EPA issued
                 revised regulations, establishing standards and criteria to be used for all types of
                 compensatory mitigation. Compensatory mitigation refers to the restoration,
                 establishment, enhancement, or in certain circumstances preservation of wetlands,
                 streams or other aquatic resources for the purpose of offsetting unavoidable
                 adverse impacts.

                 Since 1989, the EPA’s goal in this program has been to achieve “no net loss” of
                 wetlands. In the fiscal year 2013 Annual Plan, the EPA reported “no net loss” of
                 wetlands in the 404 regulatory program for fiscal years 2009 through 2011.


1
  U.S. Department of Interior, U.S. Fish and Wildlife Service, Status and Trends of Wetlands in the Conterminous
United States 2004 to 2009, September 2011.
2
  The guidelines are published in Title 40 of the Code of Federal Regulations (CFR), Part 230 - Section 404(b)(1),
Guidelines For Specification Of Disposal Sites For Dredged Or Fill Material.


14-P-0191                                                                                                            1
                The EPA office having primary responsibility for the issues evaluated in this
                report is the Office of Water’s Office of Wetlands, Oceans and Watersheds.

Scope and Methodology
                We reviewed Section 404 of the CWA, regulations, performance reporting under
                the EPA’s 2013 Annual Plan, and the EPA’s National Water Program Guidance.
                We also reviewed memorandums of agreement between the USACE and EPA to
                gain an understanding of how regulations and guidance are implemented. We also
                interviewed staff and managers from the EPA’s Office of Water and EPA
                Regions 2 and 5 about the EPA’s activities under Section 404. We selected these
                regions because they contain states that have a variety of wetlands and some of
                the highest percentages of wetland losses. We also interviewed managers in the
                USACE’s Section 404 program and staff from the Environmental Law Institute.
                We conducted our review from January 2013 to February 2014 in accordance
                with generally accepted government auditing standards. Those standards require
                that we plan and perform our review to obtain sufficient, appropriate evidence to
                provide a reasonable basis for our findings and conclusions based on our
                objectives. We believe that the evidence obtained provides a reasonable basis for
                our findings and conclusions based on our objective.

Results of Review
                The EPA attempts to verify that the application of the wetlands protection and
                restoration guidelines furthers the goal of “no net loss” by comparing the total
                acres of wetland impacts to the total acres planned for mitigation in the USACE’s
                Section 404 permits. However, this comparison is based on the EPA’s assumption
                that all wetlands mitigation projects will meet performance standards. Not all
                mitigation projects meet these standards. For example, in a 2011 report about
                North Carolina wetlands mitigation projects3, it was reported that “… no single
                mitigation provider, mitigation type or geographic region achieved complete
                success according to the standards approved in mitigation plans.” Specifically, the
                report noted that 74 percent of the mitigation projects attained the mitigation goals
                established in the Section 404 permits. Because the EPA’s performance reporting4
                does not inform readers of this assumption, the Office of Inspector General
                concluded that the EPA’s reporting of “no net loss” of wetlands hampers the
                public’s understanding of the EPA’s actual performance in protecting wetlands.
                The EPA should indicate in its wetlands measure definitions webpage and in
                future annual plan performance reporting that achieving “no net loss” is based
                upon an assumption that wetlands mitigation projects meet performance
                standards.


3
  Compensatory stream and wetland mitigation in North Carolina: An evaluation of regulatory success.
North Carolina Department of Environment and Natural Resources Division of Water Quality, March 2011.
4
  United States Environmental Protection Agency, FY2013 Annual Plan, p. 107, Performance Measure 4E.


14-P-0191                                                                                               2
Recommendation
            We recommend that the Assistant Administrator for Water:

               1. Clarify on the wetlands measure definitions webpage and in future annual
                  plan performance reporting that “no net loss” of wetlands is based upon an
                  assumption that mitigation projects contained in CWA Section 404
                  permits will meet performance standards.

Agency Response and OIG Comment
            The agency agreed with our recommendation. The agency said it updated its
            National Water Program Guidance for the fiscal year 2015 Proposed Program
            Measure, so that the text now reads: “In partnership with the U.S. Army Corps of
            Engineers, states and tribes achieve 'no net loss' of wetlands each year under the
            Clean Water Act Section 404 regulatory program. (‘No net loss’ of wetlands is
            based on requirements for mitigation in CWA 404 permits and not the actual
            mitigation attained.).” In addition, the agency committed to clarifying the
            wetlands measure on the Office of Water’s performance webpage when the 2013
            End of Year report is posted on March 31, 2014. The Office of Water later revised
            the completion date to May 12, 2014. The recommendation is resolved.




14-P-0191                                                                                    3
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                        POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                      BENEFITS (in $000s)
                                                                                                            Planned
    Rec.    Page                                                                                           Completion    Claimed    Agreed-To
    No.      No.                         Subject                       Status1     Action Official            Date       Amount      Amount
      1        3   Clarify on the wetlands measure definitions              O    Assistant Administrator     05/12/14
                   webpage and in future annual plan performance                        for Water
                   reporting that “no net loss” of wetlands is based
                   upon an assumption that mitigation projects
                   contained in CWA Section 404 permits will meet
                   performance standards.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0191                                                                                                                                     4
                                                                                 Appendix A


                    Agency Response to Draft Report


MEMORANDUM

SUBJECT:      Response to Office of Inspector General Draft Report/Project
              No. OPE-FY13-0008
              “EPA Needs to Clarify Its Claim of ‘No Net Loss’ of Wetlands,” dated March 3,
              2014

FROM:         Nancy K. Stoner
              Acting Assistant Administrator

TO:           Arthur A. Elkins, Jr.
              Inspector General

Thank you for the opportunity to respond to the issues and recommendation in the subject audit
report. Following is a summary of the U.S. Environmental Protection Agency’s overall position,
along with its position in agreement on each of the report recommendations. We have provided
high-level planned corrective actions and estimated completion dates.

AGENCY’S OVERALL POSITION

Factual accuracy of the Draft Report: The draft report is factually accurate. “No net loss” of
wetlands is based upon an assumption that mitigation projects contained in CWA Section 404
permits will meet performance standards. The Office of Water concurs with the finding.

Corrective actions already initiated or planned:
 A clarification was made under the National Water Program Guidance for FY2015 Proposed
   Program Measure, so that the text now reads: “In partnership with the U.S. Army Corps of
   Engineers, states and tribes, achieve 'no net loss' of wetlands each year under the Clean
   Water Act Section 404 regulatory program. (‘No net loss’ of wetlands is based on
   requirements for mitigation in CWA 404 permits and not the actual mitigation attained.)”
 Clarify measure on OW performance web page: Measure will be clarified when the 2013 End
   of Year report is posted on March 31, 2014




14-P-0191                                                                                        5
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
 No Recommendation                 High-Level Intended Corrective           Estimated
  .                                Action(s)                                Completion by
                                                                            FY

  1   Clarification under FY15     Add clarifying statement                 Complete
      NWPG

  2   Clarification on OW          Add clarifying statement                 Mar. 31, 2014
      performance web page


CONTACT INFORMATION

If you have any questions regarding this response, please contact Jim Pendergast, Acting
Director, Wetlands Division, Office of Wetlands, Oceans, and Watersheds on (202) 566-0398 or
Sineta Brown on (202) 564-3666.

Attachments
cc: Michael H. Shapiro
    Gregory Peck
    Timothy Fontaine
    Macara Lousberg
    Marilyn Ramos
    Michael Mason




14-P-0191                                                                                   6
                                                                            Appendix B

                                      Distribution
Office of the Administrator
Assistant Administrator for Water
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator for Water
Audit Follow-Up Coordinator, Office of Water




14-P-0191                                                                            7
